U.S. Department of                                                                Office of Inspector General
Transportation                                                                    Washington, DC 20590
Office of the Secretary
of Transportation

December 22, 2010



The Honorable Patty Murray                            The Honorable John W. Olver
Chairman                                              Chairman
Subcommittee on Transportation,                       Subcommittee on Transportation,
Housing and Urban Development, and                    Housing and Urban Development, and
Related Agencies                                      Related Agencies
Committee on Appropriations                           Committee on Appropriations
United States Senate                                  United States House of Representatives
Washington, DC 20510                                  Washington, DC 20515

The Honorable Christopher “Kit” Bond                  The Honorable Tom Latham
Ranking Member                                        Ranking Member
Subcommittee on Transportation,                       Subcommittee on Transportation,
Housing and Urban Development, and                    Housing and Urban Development, and
Related Agencies                                      Related Agencies
Committee on Appropriations                           Committee on Appropriations
United States Senate                                  United States House of Representatives
Washington, DC 20510                                  Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Latham:

This semiannual report presents our assessment of Amtrak’s fiscal year 2010
unaudited financial performance, which includes an update on Amtrak’s efforts to
improve services, business processes, and operating results. 1 This report also
includes our reviews of Amtrak’s 5-Year Financial Plan for fiscal years 2011
through 2015 and its annual budget for fiscal year 2011. Both reviews are
required by the Passenger Rail Investment and Improvement Act of 2008
(PRIIA). 2
1   The Transportation/HUD Division of the Consolidated Appropriations Act of 2010, Pub.L. No. 111-117
    requires the OIG to report semi-annually on Amtrak's savings.
2
    PRIIA authorizes funding for Amtrak through 2013, and requires Amtrak to develop and maintain a 5-
    year financial plan. OIG reviews the plan annually to determine if it meets requirements outlined in
    PRIIA's Section 204.


CC-2010-073
                                                                                                                                            2

SUMMARY

Amtrak ended fiscal year 2010 setting records in both revenue and ridership. As a
result, its operating loss of $437.5 million was $125.5 million or 22 percent less
than budgeted (see figure 1). 3 This represents a $114.6 million improvement over
the forecasted loss we reported at mid-year. Amtrak is moving towards successful
implementation of the improvement initiatives outlined for fiscal year 2010, which
are reflected in three of Amtrak's key performance indicators (KPIs) that we
track. 4 KPIs are used to measure the company's progress in achieving its goals.
We also found that Amtrak's 5-Year Plan covering fiscal years 2011 through 2015
meets PRIIA requirements, although some information required by the Act will be
delayed by 3 months, primarily due to limitations of Amtrak's new financial
reporting system. Finally, Amtrak's fiscal year 2011 budget falls within funding
amounts authorized in PRIIA.

Figure 1. Amtrak Actual vs. Budget Fiscal Year 2010 Operating
Loss (Dollars in Millions)
       0
            (36.9)
                      (74.9)
            (41.6)               (87.7)
    (100)            (83.7)
                                             (170.3)
                               (139.3)
    (200)                                              (237.1)
                                          (211.9)                 (263.3)
                                                                             (294.6)
    (300)                                                                              (329.1)
                                                    (283.6)                                       (348.3)
                                                                                                            (364.2)
                                                                 (334.6)                                                (392.8)
    (400)                                                                   (379.0)                                               (437.5)
                                                                                       (420.8)
                                                                                                 (456.4)
    (500)
                                                                                                            (494.7)
                                                                                                                      (522.1)     (563.0)

    (600)
             Oct      Nov        Dec         Jan       Feb         Mar        Apr       May        Jun        Jul        Aug      Sep


                                          Actual         Budget             Federal Operating Support

Source: OIG analysis of Amtrak data



3
    Operating loss is earnings before interest, taxes, depreciation, and other post-employment benefits
    (EBITDO), unless otherwise noted. EBITDO operating loss is a measure of Amtrak’s ability to operate
    within its available resources and serves as a reasonable proxy for Amtrak’s Federal operating support
    requirements.
4
    While Amtrak established nine KPIs to measure efficiency and effectiveness, we are tracking three of the
    four efficiency measures. Consistent with Amtrak's approach to evaluating its improvement initiatives,
    we will track the cost recovery ratio (CRR), revenues per seat mile (RASM), and cost per seat mile
    (CASM).


CC-2010-073
                                                                                     3

AMTRAK’S FISCAL YEAR 2010 OPERATING LOSS WAS
SIGNIFICANTLY LESS THAN EXPECTED

Amtrak’s operating loss for fiscal year 2010 was significantly less than budgeted,
primarily due to higher than expected passenger-related revenue and lower than
expected salary and wage expenses. Table 1 shows Amtrak’s fiscal year 2010
actual operating revenues, expenses, and loss compared to the fiscal year 2010
budget and fiscal year 2009 actual results. As shown in the table, Amtrak’s end-
of-year operating loss of $437.5 million was $125.5 million less than budget and
$20.3 million less than fiscal year 2009's loss of $457.8 million. Amtrak’s
ridership and revenues were higher than budgeted for the year on long-distance
routes and the majority of corridors, particularly in the northeast. This was due
primarily to higher gasoline prices (which causes travelers to seek alternatives to
driving) and growing dissatisfaction with air service alternatives. The decline in
expenses was due primarily to lower employee benefits costs. The impact of these
factors on Amtrak’s fiscal year 2010 financial performance is discussed in more
detail below.

Table 1: Amtrak’s Fiscal Year 2010 Financial Performance
(Dollars in Millions)
                                                    Fiscal Year          Variance
                              Fiscal Year 2010         2009       Favorable/(Unfavorable)
                             Actual      Budget       Actual     Budget Fiscal Year 2009
Total Operating Revenues     $2,484.4    $2,397.3       $2,325.6   $87.1           $158.8
Total Operating Expenses     $2,921.9    $2,960.3      $2,783.5    $38.3         ($138.5)
 Operating Profit/(Loss)      ($437.5)   ($563.0)      ($457.8)   $125.5            $20.3
Source: OIG analysis of Amtrak data

Operating Revenue. Total operating revenue in fiscal year 2010 was
$2.5 billion—$87.1 million better than budget and $158.8 million better than fiscal
year 2009 as shown in Table 1. Amtrak's total ridership in fiscal year 2010 was
28.7 million trips, 4.4 percent higher than budgeted as shown in table 2 and
5.7 percent more than the prior year. As a result, passenger-related revenue was
$69.3 million or 3.6 percent higher than budgeted.

Acela ticket revenues were better than budget by $21.2 million ($440.1 million
versus $418.9 million) or 5.1 percent, while Northeast Regional train ticket
revenues were better than budget by $20.8 million ($458.1 million versus
$437.3 million) or 4.8 percent. Both figured significantly in Amtrak’s improved
total passenger revenues (see Table 2). Continuing the trend from the first half of
the year, Amtrak’s long distance trains also performed above budget in both
revenue and ridership and beat expected results for Acela and the regional


CC-2010-073
                                                                                                                 4

Northeast Corridor (NEC) trains. Overall, Amtrak's long distance train revenues
in fiscal year 2010 were better than budget by $25.7 million ($453.8 million
versus $428.2 million) or 6 percent and ridership was up 6.6 percent compared to
fiscal year 2009. In addition, non-passenger related revenues were also
$7.1 million or 2 percent higher than budgeted, due primarily to a settlement
regarding concrete ties, higher than budgeted building rents, and Metrolink
commuter revenue.

Table 2. Amtrak Ridership and Passenger Ticket Revenues,
Actual vs. Budget – Fiscal Year 2010
                                              Ridership                             Ticket Revenue
Route                                       (in millions)                            ($ in millions)
                                 Actual       Budget        % Diff.       Actual        Budget         % Diff.

NEC:†                              10.4         9.9          4.7%         $899.1        $857.3          4.9%

• Acela                            3.2          3.1          5.5%         $440.1        $418.9          5.1%

• Northeast Regional               7.1          6.8          4.4%         $458.1        $437.3          4.8%
State-Supported and
                                   13.9         13.4         3.4%         $390.0        $367.6          6.1%
  Other Corridors
Long Distance                      4.5          4.2          6.8%         $453.8        $428.2          6.0%

Amtrak Total                       28.7         27.5         4.4%        $1,743.0      $1,653.1         5.4%
Source: Amtrak
†: Total includes NEC Special Trains, not shown.

Operating Expenses. Total operating expenses for fiscal year 2010 were
$2.9 billion—$38.3 million or 1.3 percent less than budgeted but $138.5 million
more than fiscal year 2009. These lower expenses continue the trend from the first
half of the year driven by lower than budgeted employee benefits and fuel costs.
Lower than budgeted operating expenses were also a result of a credit related to
capital expenditures 5 of $25.3 million more than budgeted and $11.5 million less
than budgeted for professional fees. Offsetting these lower expenses was a
$15.6 million increase in incentive payments to host railroads for improved on-
time performance.




5
    This credit is a standard accounting practice that allows for some capital project charges to initially be
    paid out under a regular operations budget. This adjustment must be made by the fiscal year-end.


CC-2010-073
                                                                                    5

IMPROVEMENT INITIATIVES FOR 2010 APPEAR TO BE
SUCCESSFUL AS REFLECTED IN EFFICIENCY RELATED KEY
PERFORMANCE INDICATORS

Amtrak is moving towards successful implementation of the improvement
initiatives outlined for fiscal year 2010, which are reflected in three of Amtrak's
KPIs we track and use to measure the company's progress in achieving its goals.
As reported in the previous semiannual report, in its fiscal year 2010
Comprehensive Business Plan, Amtrak outlined seven initiatives aimed at
producing an additional $31.6 million in revenues, with associated costs of $14.8
million. These initiatives include:

• an increase in advertising expenditures to increase market share and ridership;
• new state supported routes in Virginia;
• launch of enhanced next generation e-ticketing;
• partnership with Rail Europe for reservations by European travelers;
• additional Cascades and Piedmont trains;
• reduction in frequency of special trains; and
• launch of Wi-Fi on Acela trains.

While for a number of initiatives it is too difficult to determine the incremental
impact of any given initiative or project on revenue, finance officials were able to
provide year-end results for some initiatives. For example, Amtrak's Partnership
with Rail Europe was successful as $6.7 million in international bookings were
generated in fiscal year 2010, $5 million more than anticipated. Data for
Virginia's state-supported service, the Cascades/Piedmont initiative, and the
reduced-frequency special train service initiative was only available through
August 2010, but according to finance officials preliminary September revenue
data was better than budget. This suggests that the success seen through August
will likely continue into September which should allow Amtrak to meet or exceed
the goals laid out for these initiatives. Also, given Amtrak's increased revenue and
ridership figures, these initiatives appear to have contributed to generating
additional revenue.

Amtrak's fiscal year 2011 Comprehensive Business Plan outlines six new
initiatives that are expected to generate additional revenues of approximately
$57.7 million and increase expenses by $50.5 million (see Table 3.)




CC-2010-073
                                                                                           6

Table 3: Amtrak Fiscal Year 2011 Improvement Initiatives
(Dollars in Millions)
                                                                   Projected   Projected
                                                                   Revenue     Expense
Improvement Initiative                                             Impact      Impact
New state supported routes in Virginia (Lynchburg & Richmond)        $0.8
Launch of enhanced next generation e-Ticketing channel              ($3.1)
Revenue Workbench - Capital project not funded                      ($0.4)
New 3rd party contracts in Los Angeles                               $30.1        $26.1
Increase in revenue related to compliance with PRIIA Section 207     $23.0        $24.4
Increase in state supported revenue due to new efforts               $7.4
Total Fiscal Year 2011                                              $57.7         $50.5
Source: Amtrak

As we previously reported, because KPIs are derived from the budget plan and the
plan is based on a number of factors that are intended to improve efficiencies,
KPIs provide a more efficient way of evaluating performance to budget and a
more streamlined way to evaluate the impact of improvement initiatives. The
KPIs measure both efficiency and effectiveness and are linked to one or more
strategic goals (see Figure 2).

Figure 2. Amtrak's Key Performance Indicators
 Efficiency Measures:
 1. Cost per Available Seat Mile (CASM) - cost to move a seat one mile.
 2. Cost Recovery Ratio (CRR) - proportion of expenses that are covered by
    revenues.
 3. Passenger Miles per Core Employee - total passenger miles divided by employees
    in core business lines.
 4. Revenue per Available Seat Mile (RASM) - income produced by moving a seat one
    mile.

 Effectiveness Measures:
 1. Safety Ratio - number of reportable injuries per 200,000 man-hours of work.
 2. Customer Service Index (CSI) - survey-generated measure of performance.
 3. Host Railroad Performance - minutes of delay per ten thousand train miles.
 4. On-Time Performance (OTP) - percentage of trains that arrive at their destination
    within the “threshold of tolerance” for delay.
 5. Ridership Growth - percentage of increase (or decrease) in riders.




CC-2010-073
                                                                                    7

While Amtrak established nine KPIs to measure efficiency and effectiveness, we
are tracking three of the efficiency measures RASM, CASM, and CRR because
the plan and its many assumptions drive these particular KPIs. For fiscal year
2010 all three performed better than budget indicating that operations are
performing more efficiently than expected (see Table 4). RASM for fiscal year
2010 amounted to $0.16, better than the budgeted amount of $0.159, while CASM
for the same period was $0.208, better than budget of $0.218. RASM and CASM,
which measure revenue and expense performance, respectively, demonstrated
better than budgeted results, in line with our discussion of revenues and expenses
above. CRR, which reflects the percentage of costs covered by revenues, was also
better than budgeted for the fiscal year, 77 percent compared to 73 percent
budgeted. Two of the three KPIs —RASM and CRR—exceeded the previous
year's figures by 6.0 and 3.4 percent, respectively.

Table 4. Key Performance Indicators for Fiscal Year 2010
Compared to Budget and Previous Year Results
                                        Variance to Budget             Variance to 2009
Key Performance
Indicator             Actual   Budget   Amount     Percent   2009     Amount     Percent

Core Revenue per
                      $0.160   $0.159   $0.001      0.6%     $0.151   $0.009      6.0%
Seat Mile (RASM)


Core Expenses per
                      $0.208   $0.218   $0.010      4.6%     $0.203   ($0.005)   (2.5%)
Seat Mile (CASM)


Cost Recovery Ratio
                      77.0%    73.0%     N/A        5.5%     74.5%      N/A       3.4%
(CRR)

Source: Amtrak

AMTRAK'S 5-YEAR PLAN AND ANNUAL BUDGET ARE IN LINE
WITH PRIIA REQUIREMENTS

Amtrak's 5-Year Plan covering fiscal years 2011 through 2015 meets PRIIA
requirements, although reporting of some required information will be delayed.
The updated plan addresses shortcomings identified in the plan for fiscal years
2010 through 2014. However, Amtrak finance officials informed us that reporting
on two route-related performance metrics, required in the updated plan, will be
delayed due to financial reporting system limitations. Amtrak will issue an
amendment within the year containing the information. The updated plan includes
information on Amtrak's commitment to High Speed Rail (HSR). Finally,



CC-2010-073
                                                                                   8

Amtrak's fiscal year 2011 budget falls within funding amounts authorized in
PRIIA. Details regarding these issues are discussed below.

   • We reported last year that Amtrak's 5-Year Plan for fiscal years 2010
     through 2014 lacked detailed information for two requirements—the key
     cost drivers for various expenses and Amtrak's strategy for managing its
     aging workforce. This year's 5-Year Plan included information on the cost
     drivers behind these expenses, and information on the company's human
     capital plan, which Amtrak developed to help meet its workforce needs.
     The plan states that in fiscal year 2011, Amtrak's human resources
     department will design and implement improvements to the company's
     compensation structure. However, Amtrak finance officials told us that the
     structure is still under development.

   • Financial system limitations have caused delays in the reporting of certain
     metrics. The Amtrak Performance Tracking (APT) system, which has been
     operating and reporting results since 2009, allocates costs to routes and
     customers. However, due to APT's limitations, this year's 5-Year Financial
     Plan did not present information on two metrics: cash operating loss by
     route, and labor productivity by route. Finance officials informed us that,
     while last year's plan included information on these metrics, this year they
     found a flaw in the method used to generate the data. Finance staff is
     currently working to revise its methodology and plans on publishing an
     amendment to the plan within 3 months.

   • While the current plan includes information on the new HSR department,
     Amtrak has not integrated the cost estimates for the program, as outlined in
     its HSR Vision document, into the 5-Year Plan, and has included only a
     high-level estimate for an HSR department. However, finance officials
     stated that they anticipate that next year’s plan will reflect the recent hiring
     of a HSR executive, department staffing, and planned initiatives.

   • Amtrak's fiscal year 2011 budget meets PRIIA requirements in terms of
     allowable net operating loss. The budget is based on $2.5 billion in total
     revenues and $3.1 billion in expenses for the year, allowing for a projected
     cash loss of $591.9 million. This amount is less than the $592 million net
     loss allowed under PRIIA.




CC-2010-073
                                                                                 9

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
Mitch Behm, Assistant Inspector General for Rail, Maritime, and Economic
Analysis, at (202) 366-9970.

Sincerely,




Calvin L. Scovel, III
Inspector General
cc:    Secretary of Transportation
       Chairman of Amtrak’s Board of Directors




CC-2010-073
